SUPREME COURT OF THE UNITED STATES

FILED
iJl/pS 2020

IN.RE: STEVEN ROBINSON A/K/A MICHAEL MOORE

SUPR EEMEFCni fn5L5

PETITIONER

I

V

mgi

UNITED STATES OF AMERICA

RESPONDENT.

PETITION FOR WRIT OF CERTIORARI
TO THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR A WRIT OF CERTIORARI
"BRIEF FOR PETITIONER"

STEVEN ROBINSON A/K/A/ MICHAEL MOORE
PRO -SE
MICHAEL MOORE # 08088-007
RIVERS CORRECTIONAL INSTITUTION
P.O. BOX 630
WINTON,NC 27986

t *s.
r

QUESTION PRESENTED

I. WAS PETITIONER'S FIFTH AMENDMENT COMPULSORY SELF INCRIMINATION WAS VIOLATED
BECAUSE THE PROSECUTING ATTORNEYS GLENN KIRSCHNER AND NIHAR MOHANTY THREATEN
TO PROSECUTE PETITIONER'S BABY'S MOTHER [NASTASHA HENDERSON] FOR OBSTRUCTION
OF JUSTICE,IF PETITIONER DID NOT ADMIT GUILT TO: SECOND DEGREE MURDER WHILE
ARMED AND OBSTRUCTION OF JUSTICE?

II.WAS PETITIONER DENIED SIXTH AMENDMENT EFFECTIVE ASSISTANCE OF COUNSEL BY
HIS ATTORNEY PAUL SIGNET FOR FAILING TO INVESTIGATE THE CIRCUMSTANCES OF
PETITIONER'S PLEA AGREEMENT BEFORE HE PROVIDED PETITIONER MANIFESTLY INCORRECT
INFORMATION AND ADVISED PETITIONER TO ENTER A PLEA OF GUILTY TO SAVE HIS
BABY'S MOTHER?

III. WAS PETITIONER DENIED FOURTEENTH AMENDMENT PROCEDURAL DUE PROCESS WHEN
HE TRIED TO BRING HIS FACTUAL CONSTITUTION CLAIMS TO THE COURT'S ATTENTION
AND THEY REJECT HIS CLAIMS,EVIDENCE AND CONSIDERED HIS CLAIMS PROCEDURALLY
BARRED?

i

t

V
TABLE OF CONTENTS

QUESTIONS PRESENTED

TABLE OF CONTENTS

TABLE OF AUTHORITIES

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED

STATEMENT OF CASE

REASONS FOR GRANTING THE PETITION

CONCLUSION

APPENDIX (APP.#) AND PETITIONER'S EXHIBIT (Pet.Ex.#)

ii

v

V

/

SUPREME COURT OF THE UNITED STATES

NO.

STEVEN ROBINSON A/K/A/ MICHAEL MOORE,
PETITIONER,
V.
UNITED STATES OF AMERICA,
RESPONDENT.

1

- i'i

—^etxtxon FOR WRIT OF CERTIORARI

Steven Robinson (herein Petitioner) petition for a Writ of Certiorari to
review the Judgment of the District of Columbia Court of Appeals affirming the
District of Columbia Superior Court denying petitioner's D.C. Code § 23-110
motion to vacate,set aside or correct sentence,alternative, to withdraw a
guilty plea after sentence to correct 'manifest injustice'.

0PI0NI0NS BELOW
The opinions of the Court of Appeals are (App.# 1A - 2A) and the Superior
Court are (IB - 10B)

JURISDICTION
The Judgment from the Court of Appeals was entered on April 30,2020, and is
invoked pursuant to Rule 10 (c) of this Court

(1)

1

TABLE OF AUTHORITIES

Case

Pages

Arrington v.United States,804 A.2d 1068 (D.C.2002)..........................
Bordenkircher v.Hayes,434 U.S.357,364 n.8,98 S.Ct.663,54 L.Ed.2d 604 (1978)
Blackiedge v.Allison,431 U.S.63,74-75,97 S.Ct.1621,1629-30,52 L.Ed.2d 136
(1977)
Brady v.United States,397 U.S.742,748-49,25 L.Ed.2d 747,90 S.Ct.1463 (1970)
Gaston v.United States,535 A.2d 893,898 (D.C.1988)................................ .
Gibson v.United States,388 A.2d 1214,1215 (D.C.1978)..................................
Harman v.Mohn,683 F.2d 834,837 (4th Cir.1982)
Head v.United States,489 A.2d 450,451 (D.C.1985)
Hicks v.United States,362 A.2d 111,113 (D.C.1976)
Hill v.Lockhart,474 U.S.52,56,88 L.Ed.2d 203,106 S.Ct.366 (1985)
Martin v.Kept,760 F.2d 1244,1247-48 (11th Cir.1985)
Machibroda v.United States,368 U.S.487,82 S.Ct.510,513,7 L.Ed.2d 470 (1963)
Martinez v.Ryan, 132 S.Ct.1309 (2012)
McClurkin v.United States,472 A.2d 1348,1352 (D.C.)cert.denied,469,U.S.838,105
S.Ct.136 83 L.Ed.2d 76 (1984)
Morrison v.United States,579 A.2d 686,689 (D.C.1990)
Ramsey v.United States,569 A.2d 142 (D.C.1990)
Ready v.United States,620 A.2d 233,234 (D.C.1993)
Shepard v.United States,533 A.2d 1278,1280 (D.C.1987)
United States v.Diaz,733 F.2d 371,375 (5th Cir.1984)
United States v.Frady,456 U.S.152,167-68,71 L.Ed.2d 816,102 S.Ct.1584 (1982)
United States v.Marruez,909 F.2d 738,742 (2nd Cir.1990)
United States v.McCarthy,433 F.3d 591,592 (1st Cir.1970)
United States v.Nuckols,606 F.2d 566,569 (5th Cir.1979)
United States v.Pollard,959 F.2d 1011,1022 (D.C.Cir.1992)
Washington v.United States,834 A.2d 899 (D.C.2003)
/ o\

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

Fifth Amendment Compulsory Self-Incriminaltion: any form of
coercion,physical or psychological which renders a confession
of crime or an admission involuntary is in violation of the
Fifth Amendment and due process clause of the 14th Amendment,
Such practices contravene the way very basis to our criminal
jurisprudence which is accusatorial, not inquisitorial.

Sixth Amendment Ineffective Assistance of Counsel: the sixth
amendment imposes on counsel a duty to investigate because
reasonable effective assistance must be based on professional
decisions and informed legal choices can be made only after
investigation of options.

Fourteenth

Amendment

Procedural

Due

Process:

for

the

guarantees of procedural due process to apply, it must first
be shown that a deprivation of a significant life,liberty,or
property interest has occurred.
the

Due

Process

Clause

This is necessary to bring

into play.

Minimal procedural due

process is that parties whose rights are to be affected are
entitled to be heard and in order that they enjoy that right
they must be notified.

D.C. Code Statute:
22 D.C. Code,see 1805(a)
22 D.C. Code,see 2101,4502
22 D.C. Code.see 4504(b)

(3)

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

22 D.C.Code,sec.3215
22 D.C.Code,sec.4504(a)(2001 ed.)
'manifest

23-110

§

D.C.Code

injustice'

standard;alternatively,D.C. Superior Court Rule 32(e) motion
to withdraw a guilty plea.

D.C. Code §22 - 4131 (7)(A)

Parties
Paul Signet,trial/plea proceeding Attorney
Archie Nichols,§23-110 Hearing Attorney
Kevin McCants,retain appellate Attorney
Erik Chirstian,plea/motion proceeding Judge
Gleen Kirschner,plea proceeding prosecutor
Nihar Mohanty,plea proceeding prosecutor
Elizabeth Trasman,appellate prosecutor

STATEMENT OF CASE
John

Allen,Jr.,

shot

was

and

killed

on

December

31,2005;petitioner was arrested in connection with Mr.Allen's
murder on February 14,2006.

On

September

12,2006

petitioner was

counts:22-1805(a);Carrying
2101,4502-

a

Pistol

indicted on
Without

Conspiracy,§22-4504(b)-First-Degree

a

five

(5)

License,22Murder

While

Armed(premeditated),§22-3215-Possession of a Firearm During
Crime of Violence or Dangerous Offense,and §22-4504(a)(2001.ed)

(4)

t

s

Ji

_ \J J

STATEMENT OF CASE
Unauthorized Use of Vehicle.

On August 16,2007 petitioner plead guilty to:second degree murder while armed
and obstruction of justice.

On August 21,2007 petitioner attempted to withdraw his guilty plea,asserting
that (1) the government coerced him into pleading guilty by threatening to
prosecute his baby's mother [Nastasha Henderson].

On 0etoberyl9,2007 theifcourt,Judge Erik Christian, denied petitioner's D.C.
Super.Ct.Crim.R.32(e) motion to withdraw his plea and sentence him to thirtyfive (35) years imprisonment.

On February 12,2008 petitioner filed a motion to withdraw his guilty plea
(pro-se) asserting (1) he was coerced into pleading guilty by the government
threatening to prosecute his baby's mother, that motion was denied on July
31,2008.

On October 9,2008 petitioner filed a motion pursuant to D.C. Code§ 23-110
,alternative,D.C.Super.Ct.Crim.R‘;',32(e). The court concluded that it was nece
cessary to hold a hearing and appointed Attorney Archie Nichols to represent
petitioner.

On September 10,2009the court held an evidentiary hearing and on December 30,
2009 the court denied petitioner's § 23-110 motion for being unsupportive.

(5)

1

s':

STATEMENT OF CASE

On January 1,2010 petitioner filed a notice of appeal from the deinal of his
§ 23-110 motion, the Court of Appeals affrimed on June 22,2011;appeal no.10CO-277.

On April 23,2012 petitioner filed a motion to recall the mandate against his
retain appellate Attorney Kevin McCants. The Court of Appeals denied on Novem­
ber 14,2012.

On May 7,2012 petitioner filed another § 23-110 motion against his post-con­
viction appellate Attorney Mr.Nichols, the court denied that motion on August
20,2012.

On September 11,2012 petitioner filed a notice of appeal from the denial of
his § 23-110 motion, the Court of Appeals affirmed on July 16,2013;appeal no.
12-00-1619.

On October 17,2013 petitioner filed a a motion for reconsideration, the court
denied that motion on October 23,2013.

On January 8,2014 petitioner filed a motion for writ of error coram nobis,
the court denied on March 24,2014.

On July 25,2014 petitioner filed another §23-110 motion, the court denied that
motion on November 30,2015.

(6)

3

STATEMENT OF CASE

On December 15,2015 petitioner filed a notice of appeal, the Court of Appeals
affirmed on November 7,2016.

On August 17,2017 petitioner filed a Application Seeking Leave to File a §23110 motion, the court denied that Application on June 13,2018.

On June 26,2018 petitioner filed a Application Pursuant to the Court Order
Seeking Leave to File a notice of Appeal, the court granted that Application
on June 20,2019.

On October 11,2019 petitioner filed his appeal brief, the Court of Appeals
affirmed on April 30,2020.

REASONS FOR GRANTING THE PETITION

Petitioner's factaul allegations raise substantive Constitutional questions:
the extent to which prosecutors in plea bargaining may utilize threats against
third persons as a negotiating tactic. The Supreme Court has expressly reserved
judgmenton this issue.SeeUBordenkircher v.hayes,434 U.S.357,364 n.8,98 S.Ct.
663,54 L.Ed.2d 604 (1978). there seems to be a general consensus ,with which
the Supreme Court concur,that guilty pleas made in consideration of lenient
treatment as against third persons pose a greater danger of coercion than
purely bilateral plea bargaining, and that, accordingly,"special care must be
taken to ascertain the voluntariness of" guilty pleas entered in such circum­
stances.

07) (

3

REASONS FOR GRANTING THE PETITION
On the present record, the District of Columbia Superior Court and the Court
of Appeals cannot say whether the prosecutors' threat to prosecute petitioner's
baby's mother [Nastasha Henderson] for obstruction of justice, if he did not
admit guilt to: second degree murder while armed and obstruction of justice;
were made in good faith or otherwise. There is no evidence indicating that
[Ms.Henderson] was an accomplice to petitioner's allege criminal conduct,or
implicated in any other that would justified her prosecution.

The trial court declination to hear petitioner's claim in this regard con­
sequently was not harmless error. Petitioner must be afforded a hearing on
whether the threat to prosecute his baby's mother were found in good faith
upon probable cause,if not,petitioner must be given an opportunity to re­
plea.

Most fedBEalcomrtsrihavenheldcitihaf:,to act in good faith;prosecutors must have
probable cause to indict the third person at the time they offer lenity or
communicate the promise.See United States v.Pollard,959 F.2d 1011,1022(D.C.
Cir.l992)(' Once the government had probable cause to rposecute Mre.Pollard
and had a valid indictment,it was entitled despite her illness,to prosecute
her fully or offer lenience for her in exchange for Pollard'splea');See
United States v.Marruez,909 F.2d 738,742 (2nd Cir.l990)(' Where the plea
is entered after the prosecutors threaten prosecution of a third party, courts
have afford the defendant an opportunity to show that probable cause for the
prosecution was lacking when the threat was made');cert.denied,498 U.S.1084,
112 L.Ed.2d 1045,111 S.Ct.957 (1991).

(8)

t»

REASONS FOR GRANTING THE PETITION

See Martin v.Kemp,760 F.2d 1244,1247-48 (11th Cir.l985)(' holding that defen­
dant demonstrated that the government did not observe a 'high standard of good
faith' based upon probable cause to believe that the third party had committed
a crime."); See United States v.Diaz,733 F.2d 371 375 (5th Cir.1984)('Good
faith is establish when the prosecutors has probable cause to bring charge');
See tin!ted States v.Nuckols,606 F. 2d 566,569 (5th Cir.l979)4nd Hannan v.Mohn,
683 F.2d 834,837 (4th Cir, 1982)('stating that"absent probable cause to believe
that the third person has committed a crime," offering concessions as to him
or her constitutes a species of fraud.')(quoting Nuckols,606 F.2d at 569).

On August 14,2007 petitioner's case was call for jury selection until the
prosecuting Attorneys Gleen Kirschner and Nihar Mohanty introduce a obstruction
of justice accusation against petitioner. Defense Attorney Paul Signet request
the court for a continuance, the court granted Attorney Signet a two day con­
tinuance .

On Aug. 15,2007 Attorney Signet scheduled a plea negotiation meeting with the
Prosecutors Kirshner and Mohanty without petitioner's consent. During the
meeting the prosecutors offered petitioner a guilty plea to: second degree
murder while armed and obstruction of justice,petitioner reject the plea
offer.

On Aug.16,2007 petitioner case was recalled for jury selection, the court
ask the prosecutors" What was the plea offer that was rejected?" Prosecutor
Kirshner stated" Your Honor,second degree murder while armed and obstruction
of justice.lt also involved the promise not to prosecute petitioner's baby's

/n\

>

REASONS FDR GRANTING THE PETITION

mother for obstruction of justice." See (Pet.Ex.# 1) at pg.2-3

The prosecutors implication of petitioner's baby's mother was the first time
petitioner heard of such accusation against his baby's mother.

Petitioner was adamant to proceed to trial, until he heard the involvement of
his baby's mother. The court informed Attorney Signet" Well you all can talk
amongst yourselves as to those opportunities. We're going to go forward at this
time. Your client has indicated that he does not wish to enter a plea." Attorney
Signet stated " I have no indication of the plea agreement,but." Id at 8.

During a brief recess, petitioner was in the back of the courtroom,holding
cell, changing into civilian clothes to prepare for jury selection. Attorney
Signet entered the holding cell area and petitioner ask Attorney Signet" What
is the circumstances of the obstruction of justcie accusation and the invol­
vement of his baby's mother?"

On Aug.16,2007 Attorney Signet advised petitioner" the:government had come
into possession of numerous letters allegedly written by you to one of the
codefendants Mr.Robert Kelsey.Mr.Kelsey had pled guilty and became a cooper­
ator. As a result of the letters,the govememnt indicated that they would charge
you with several counts of obstruction of justice and would also be charging
your baby's mother with obstruction of justice for her separate conduct relating
to the case." See (Pet.Ex.# 6).

(10)

REASONS FOR GRANTING THE PETITION

Petitioner relied on Attorney Signet's advice and characterize the prosecutors
plea offer as a package plea deal and entered a plea of guilty on August 16,
2007.
Petitioner waived indictment for obstruction of justice, and admitted guilt in
open court" his plea was voluntarily entered" because he was deceived by the
prosecutors and his Attorney Signet's misleading advice that the prosecutors'
had probable cause to prosecute his baby's mother for obstruction of justice.

During petitioner's D.C.Superior Court Rule Criminal Procedure 11 colloquy
on Aug.16,2007;see (Pet.Ex.# 1) at pg.10-18, the trial court inquire petitioner
Attorney Signet and the prosecutors as follow............

The Court: Mr Signet,what is the plea agreement that's been reached in connection with your client in this case?"

Mr.Signet: Your Honor,if Mr .Moore pleads guilty to murder in the second degree
while armed and one count of obstruction of justice,the govemement will dismiss
all the other charges in this case. They will notbring any further charges of
obstruction that are related to this case,nor will they charge his girlfriend,
wife and mother of his child with any charges of obstruction in connection
with this case,they'll reserve papers,reserve step back and reserve allocution."

The Court: Is that correct,Mr.Mohanty?

Mr.Mohantyj It is,Your Honor.

REASONS FOR GRANTING THE PETITION

The Court: Mr .Robinson, I have before me several documents, a waiver of trial
by jury in the Court,a guilty plea form and information setting forth the
charge of obstruction of justice in which you are informed of ,a waiver of
indictment and alplea letter dated the 14th of August 2007 which includes a
waiver of DNA testing and acknowledgment and acceptance of this plea agreement.
Have you received all of the provisions and signed in the appropriate spaces
acknowledging the contents of those forms?

The Defendant: Yes.

The Court: Specifically with respect to the waiver form,have you carefully
received the form and signed in the space marked defendant acknowledging the
understanding of the contents of that form?

The Defendant: Yes.

The Court: Other than what's been stated in court today you will plead guilty
to second degree murder while armed and obstruction of justice,has there been
any other promises made to you?

The Defendant: No.

The trial court,Erik Christian's conclusion for denying petitioner's Application
Seeking Leave to File a motion under D.C. Gode§ 23-110 to withdraw a guilty

(12)

j

REASONS FOR GRANTING THE PETITION

plea after sentence has been impose to coorrect'manifest injustice,'see Mor­
rison v.United States,579 A.2d 686,689 (D.C.1990); (quoting McCiurkin v.United
States,472 A.2d 1348,1352 (D.C.), cert .denied,469 U.S. 838,105 S.Ct.136,83 L.Ed.
2d 76 (1984),and also, if defendant's conviction was imposed in violation of
the United States Constitution on June 13,2018;was clearly erroneous.

Aevidentiary hearing is necessary, in this instant case; base upon the fact
that there was relevant information that was not disclose, during petitioner's
plea proceeding or in his plea agreement,see (Pet.Ex.# 2).

This relevant information " that the prosecutors,intended to prosecute petitioner and his baby's mother for obstruction of justice in a subsequent case;"
was not disclose during petitioner's plea proceeding, and should have been
considered 'new evidence' pursuant to D.C. Code § 22-4131 (7.)(A).

I. Was petitioner Js:Fifth -Amendment Compulsory Self Incrimination was violated
because the prosecuting Attorneys Glenn Kirschner and Nihar Mohanty threaten
to prosecute petitioner's baby's mother [Nastasha Henderson] for obstruction
of justice, if petitioner did not admit guilt to: second degree murder while
armed and obstruction of justice?
A evidentiary hearing would have allow petitioner to develop a complete record,
present additional evidence and demonstrate before the trial court that the
'new evidence' would have made a difference had it been disclose. Because the
necessary question is: whether the prosecutors' promise not to prosecute
petitioner's baby's mother for obstruction of justice, if petitioner did not

(13)

REASONS FOR GRANTING THE PETITION

admit guilt to: second degree murder while armed and obstruction of justice;
were in good faith based on probable cause?

The fact that [Ms.Henderson] was never charge with any crimes related to peti­
tioner's case; establish the prosecutors was lacking probable cause to believe
that she committed any criminal acts.

The prosecuting Attorneys Kirschner and Mohanty allege that [Ms.Henderson]
visit Damon Thomas at D.C. Jail,Through instructions by petitioner, to persuade
Mr.Thomas into not implicating petitioner's name involved with an on going mur­
der investigation that Mr.Thomas and petitioner was already being accused of
committing.

The prosecutors' allegation of [Ms.Henderson's] attempt to persuade Mr.Thomas
into saying something that is not ture is contradicted by Mr.Thomas' affidavit,
, which he is willing to come to court and testify to.See (Pet.Ex.# 8).

According to Arrington v. United States,804 A.2d 1068 (D.C.2002)('Where defen­
dant provided an affidavit from an alleged participant in the crime for which
defendant was convicted in which it was alleged that defendant did not parti­
cipate, the trial court should have conducted a hearing to determine the
credibility of the affidavit declaration.)

The fact that petitioner entered a plea of guilty to save his baby's mother;
pursuant to Pollard;, 959 F.2d 1011, supra, and quo thing Nuefeols,606 F.2d 566,supra,
(Appellant must be afforded a hearing on whether the alleged threat to prosecute

(14)

REASONS FOR GRANTING THE PETITION

his baby's mother were founded in good faith upon probable cause,if not,peti­
tioner must be given an opportunity to re-plea.)ld at 570.

This relevant information" that the prosecutors intended to prosecute petitioner
and his baby's mother for obstruction of justice in a subsequent case" would
have allow petitioner to raise and demonstrate on direct appeal that probable
cause was lacking to prosecute Ms.Henderson; when the.prosecutors made their
threat to prosecute her.

The prosecuting Attorneys Glenn Kirschner and Nihar Mohanty,and also, Attorney
Signet withheld the relevant information that establish probable cause did not
exist to prosecute Ms.Henderson;when they use her to generate additional leveage over petitioner' into entering a plea of guilty, was a violation of his
Compulsory Self Incrimination right under the Fifth Amendment of the U.S.
Constitution.

The prejudice result was, had the relevant information been disclose to peti­
tioner before his direct appeal, petitioner would have been able to raise his
raise his fifth amendment compulsory self-incrimination claim on appeal,peti­
tioner would ahve been able to demonstrate the prosecutors was lacking probable
cause to prosecute Ms.Henderson, and petitioner would have teen able to re-plea.

Petitioner had demonstrated to the trial court during his § 23-110 Hearing that
he was prevented from raising his constitution calims on direct appeal because
the Prosecutors Kirschner and Mohanty,and also, Attorney Signet fail to provide

(15)

REASONS FOR GRANTING THE PETITION

petitioner with any documents that contain the relevant information,above,
before his direct appeal.See Washington v. Uni ted States, 834 A.2d 899 (D.C.
2003).

A defendant must demonstrate that" some objective factor external to the
defense impeded counsel's efforts" to raise the claim on direct appeal. Id
at 903 (citing United States v. Frady,456 U.S.152,167-68,71 L.Ed.2d 816,102
S.Ct.1584 (1982))( Once cause is shown,petitioner must then" shoulder the
burden of showing,not merely that the errors at his trial created a possi­
bility of prejudice,but that they worked to his actual and substantial disadvanage,infecting his entire trial with error of constitutional dimensions.)
id at 170.

Petitioner had shown the trial court that on May 27,2009 during a status
hearing he received documantary evidence that contain the relevant information.

On May 27,2009 petitioner received government exhibit # 9 • • • which was an
affidavit fron prosecuting Attorney Kirschner;dated May 4,2009,and also,
government exhibit # 10 • • • which was an affidavit from Attorney Signet;dated
May 1,2009.

Government exhibits # 9 and # 10 were the only documents that ever contain
the relevant information that was never disclose during petitioner's plea
proceeding,sentencing proceeding or provided to petitioner for direct appeal.
Frady,456 U.S. at 170.

(16)

REASONS FOR GRANTING THE PETITION

Also, petitioner demonstrated to the trial court during his § 23-110 Hearing
that Attorney Signet was ineffective assistance of counsel....as shown below;

II. Was petitioner denied Sixth Amendment effective assistance of counsel by
his Attorney Paul Signet for failing to investigate the circumstances of peti­
tioner's plea agreement before he provided petitioner manifestly incorrect
information and advised petitioner to enter a plea of guilty to save his baby's
mother?

The trial court could not have made a reasonable determination that Attorney
Signet's representation was'thorough and effective' according to Strickland
v. Washington,466 U.S.668,687-88,104 S.Ct.2052,2064-65,80 L.Ed.2d 674,693-94
(1984) because petitioner had demonstrated he was constitutional ineffective.

Petitioner's trial/plea proceeding transcript on August 16,2007 is evidence
at best that show Attorney Signet's deficient representantion.See (Pet.Tran.)

On Aug.14,2007 petitioner:case was called for jury selection,until the Pro­
secutors Kirschner and Mohanty introduce a obstruction of justice accusation
against petitioner. Attorney Signet request the court for a continuance, the
court granted Attorney Signet a two (2) day continuance.

On Aug.15,2007 Attorney Signet scheduled a plea negotiation meeting with the
prosecutors without petitioner's consent. During the meeting the prosecutors
offered petitioner a guilty plea to: second degree murder while armed and

(17)

REASONS FOR GRANTING THE PETITION

obstruction of justice,petitioner reject the plea offer.

On Aug.16,2007 petitioner’s case was recalled for jury selection, the court
ask the prosecutors" What was the plea offer that was rejected?" Prosecutor
Kirschner stated" Your Honor, second degree murder while armed and obstruction
of justice.lt also involved the promise no to prosecute petitioner's baby's
mother [Natasha Henderson] for obstruction of justice."See (Pet.tran.at 2-3)

The prosecutors implication of petitioner's baby's mother was the first time
petitioner heard of such accusation against his baby's mother.

Petitioner was adamant to proceed to trial, until he heard the involvement of
his baby's mother. The court informed Attorney Signet" Weii^you all can talk
amongst yourselves as to those opportunities. We're going to go forward at this
time. Your client has indicated that he dose not wish enter a plea." Attorney
Signet stated" I have no indication of the plea agreement,but." Id at 8.

On Aug.16,2007 moments later, Attorney Signet advised petitioner" the government
had come into possession of numerous letters allegedly written by you to one
of the codefendants Mr.Robert Kelsey. Mr.Kelsey had pled guilty and become a
cooperator. As a result of the letters, the government indicated that they
would charge you with several counts of obstruction of justice and would
also be charging your baby's mother with obstruction of justice for her
separate conduct related to the case." See (Petitioner's evidence # 6).

(18)

REASONS FOR GRANTING THE PETITION

Petitioner entered a plea of guilty to: second degree murder while armed and
obstruction of justice; base on Attorney Signet's advice on August 16,2007.

On Aug.16,2007 during the Rule 11 inquiry the court ask Attorney Signet" What
is the plea agreement that's been reached in connection with your client in
this case." See (Pet.Tran, at 10)

Attorney Signet stated" Your Honor,if Mr.Moore pleads guilty to murder in the
second degree while armed and obstruction of justice, the government will dis­
miss all the other charges in this case. They will not bring any further charges
of obstruction that are related to this case, nor will they charge his girl­
friend, wife and mother of child with any charges of obstruction in connection
with this case, they'll reserve papers,reserve step back and reserve allocution." Id.

On May 1,2009 Attorney Signet submitted an affidavit almost two (2) years after
petitioner entered a plea of guilty base on his misleading advice on August 16,
2007,see affidavit. Attorney Signet declared in his affidavit that" during the
plea negotiation meeting on August 15,2007 the prosecutors informed petitioner
'that they intended to prosecute him and his baby's mother for obstruction of
justice in a subsequent case,' " Id at 2.

Attorney Signet's declaration in his affidavit is contradicted by his statement
on the record on Aug.16,2007 when he admitted " I have no indication of the plea
agreement,but; and also, his misleading advice in his memorandum that petitioner
presented to the court during his § 23-110 Hearing. See (Pet.ev.# 6)

(19)

REASONS FOR GRANTING THE PETITION

Ihe trial court could not have considered these facts and overwhelming evidence
and found Attorney Signet's representation to be 'thorough and effective' or
found petitioner's plea of guilty to be voluntarily and knowingly entered.

Attorney Signet's advice on Aug.16,2007 was not reasonable advice received
from a competent demanded attroney, in criminal cases (Strickland,466 U.S. at
688) because Attorney Signet fail to investigate the prosecutors' plea offer
and fail to become informed of the full details of petitioner's plea agreement,
before he acted as a 'conduit' by misrepresenting to petitioner that the prose­
cutors would also be charging your baby's mother with obstruction of justice.

Attorney Signet's acts and omissions can not be considered as harmless error
because a reasonable competent attorney would have advised petitioner" according
to Pollard,959 F.2d 1011(' Once the prosecutors have probable cause to prose­
cute your baby's mother and have obtain a valid indictment, they can prosecute
her full or offer lenience for her in exchange for your plea');and also,a
reasonable competent attorney would have advised petitioner" the fact that
your baby's mother is not charge at this moment indicate the prosecutors
does not have probable cause to prosecute her."

Attorney Signet deprive petitioner of effective assistance of counsel that is
guaranteed by the Sixth Amendment of the U.S. Constitution because Attorney
Signet knew or should have known that the prosecutors did not have probable
cause to prosecute petitioner's baby's mother, but Attorney Signet still
advised petitioner to waive indictment for obstruction of justice, and enter

(20)

REASONS FOR GRANTING THE PETITION

a plea of guilty to one charge he was not charge for and another charge he did
not commit; in order to save his baby's mother,was prejudice.

There is a reasonable probability that,had Attorney Signet investigated the
full details of the prosecutors' plea agreement, Attoney Signet would have
learnt" the prosecutors intended to prosecute petitioner and his baby's mother
for obstruction of justicein a subsequent case," Attorney Signet would have
inform petitioner of the full details of the prosecutors' plea agreement,
petitioner would not have entered a plea of guilty, and would have insisted
on going to trial.Hill v.hoclfoart^474 U.S.52,56,88 L.Ed.2d 203,106 S.Ct.366
(1985).

Petitioner had argue his Fifth and Sixth Amendment Constitution claims and
presented sufficient evidence to support both of his Constitution claims
during his § 23-110 hearing on September 10,2009.

III. Was petitioner denied Fourteenth Amendment procedural due process when
he tried to bring his factual Constitution claims to the court's attention
and they rejected his claims,evidence and consider his claims waived and
abandoned?

The trial court's order on August 20,2012 establish petitioner's Constitution
claims was argue.on Sept. 10,2009, as the order held that" Defendant believes
his guilty plea was coerced and,therefore,ineffective because of a Rule 11
violation, and that Attorney Nichols failed to present evidence of this coer-

(21)

REASONS FOR GRANTING THE PETITION

cion to the Court at his § 23-110 Hearing. This Court has found on multiple
occasions that Defendant may not revoke his guilty plea,and that there was
no Rule 11 violation(Order,July 31,2008)(0ral Order,Oct.19,2007). The Court
considered evidence of coercion and believed it insufficient to find the plea
ineffective. The Court of Appeals also found that Defendant waived his right
to challenge his guilty plea.Robinson v.United£States,No.lO-OQ-277(D.C. June
22,2011). The Court found that his claim, was barred because he failed to raise
them in direct appeal of his sentence,and that he failed to challenge the plea
deal in his first § 23-110 proceeding.Id. Therefore, it would have been inprob­
able,and likely impossible,for Attorney Nichols to succeed on this claim."Id
at 5.

"furthermore, the Court considered this argument,heard evidence and findings
presented,and ultimately rejected this theory on prior occasions. Defendant
fails to present any new evidence which Attorney nichols could have presented
at the § 23-110 Hearing that would have affected the outcome."Id.

"Second,Defendant believes that Attorney Nichols failed to present evidence
showing Attorney Signet was ineffective. In particcular, Defendant argues that
this evidence would show that Attorney Signet improperly encourage Defendant
to plead guilty by telling him (a)his wife would be prosecuted for obstruction
of justice,and (b) Kelsey would testify against him as part of Kelsey's plea
agreement. However, these are conclusory claims that were already considered
and rejected by the Court."Id at 6.

(22)

REASONS FOR GRANTING THE PETITION

"Defendant fails to present any additional evidence which the Court could
consider that was not already before the Court. Attorney Nichols presented to
the Court allegation that Attorney Signet was ineffective during the plea
negotiation, and the Court rejected Attorney Nichols argument.(Order,Dec.30,
2009) The Court found that Attorney Signet had been 1 thorough,and effective',
and that the plea was not coerced, (id) Defendant offered no new evidence to
support his theory. Attorney Nichols could not be ineffective in presenting
evidence when Defendant himself cannot present any new evidence which would
show Attorney Signet's ineffectiveness. The Court finds that Atomey Nichols
was not deficient because he presented evidence of Attorney Signet's ineffecti­
veness at the § 23-110 Hearing." Id at 6.

The trial court's Order on August 20,2012 establish petitiner argue his Fifth
and Sixth Amendment Constitution claims during his § 23-110 Hearing,this show
the trial court committed reversal error for not given notice of those facts
in its order on December 30,2009.

The facts and overwhelming evidence petitioner presented in this petition for
certiorari establish manifest injusticeja tenable basis for relief because
petitioner shown his plea of guilty was not voluntarily or knowingly entered
in violation of his Fifth Amendment Compulsory Self Incrimination right and
in violation of his Sixth Amendment Effective Assistance of Counsel right.

Furthermore, the trial court's reversal error worked to petitioner's actual

(23)

REASONS FOR GRANTING THE PETITION

and substantial disadvantage cause the Court of Appeals to consider his Consti­
tution claims and evidence waived and abandoned in appeal no.lO-Co-277 and every7
other appeal thereafter.

Because of the trial court's error petitioner was denied Procedural due pro­
cess under the Fourteenth Amendment from having the Court of Appeals to con-i
sider his Constitution claims and evidence on the merits in appeal no. 10-00277 to determine whether the trial court abused its discretion for rejecting
petitioner's evidence and Constitution claims during his § 23-110 Hearing on
Sept. 10,2009,denied petitioner the right to have his plea withdrawn because
of the Constitution claims and evidence, was ifctoejprejudice result.

The Court of Appeals reason for affirming petitioner's appeal no. 19-00-547 on
April 30,2020;is clearly wrong.

The Court of Appeals' Judgment on April 30,2020;heId that" Appellant fails to
establish a tenable basis for relief. This court has previously iconsidered and
rejected all of the arguemnts appellant raises in his brief and motin for sum­
mary reversal. Where the original motion was denied on the merits,and affirmed
by this court on appeal...all the claims [appellant], raised in his first motion,
including ineffective assistance of counsel, cannot be raised again in a second
(or third or fourth) motion). " See Judgment attach

CONCLUSION
Petitioner should be afforded the right to have his Constitution claims and

(2&')

REASONS FOR GRANTING THE PETITION

evidence considered and heard on the meritsby the Court of Appeals because of
the trial court' s reversal error denying petitioner Procedural due process
under the Fourteenth Amendment in petitioner's original §23-110 motion and
his initial appeal no.10-00-277

THEREFORE,petitioner pray that the Supreme Court grant his petition for
certiorari.

Michael Moore # 08088-007
Rivers Correctional Institution
P.0. Box 630
Winton,NC 27986

( oc\

